                      U.S. ENVIRONMENTAL PROTECTION
                     AGENCY
                     OFFICE OF INSPECTOR GENERAL



                      EPA Should Improve
                      Oversight and Assure the
                      Environmental Results
                      of Puget Sound
                      Cooperative Agreements
                      Report No. 14-P-0317            July 15, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                  Eileen Collins
                                                      Kimberly Crilly
                                                      Janet Kasper
                                                      Madeline Mullen
                                                      LaTanya Scott




Abbreviations

CCMP            Comprehensive Conservation and Management Plan
CFR             Code of Federal Regulations
EPA             U.S. Environmental Protection Agency
FEATS           Financial and Ecosystem Accounting Tracking System
GMO             Grants Management Office
OGD             Office of Grants and Debarment
OIG             Office of Inspector General
OMB             Office of Management and Budget
QAPP            Quality Assurance Project Plan


Cover photos: Images of the state of Washington’s Puget Sound (top) and the Duwamish River
              that flows into Puget Sound (bottom left). A pollution-warning sign posted by
              the Duwamish River (bottom right). (EPA OIG photos)



  Hotline                                        Suggestions for Audits or Evaluations
  To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations,
  us through one of the following methods:       contact us through one of the following methods:

  email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
  phone:    1-888-546-8740                       phone:    1-202-566-2391
  fax:      1-202-566-2599                       fax:      1-202-566-2599
  online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

  write:    EPA Inspector General Hotline        write:    EPA Inspector General Hotline
            1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
            Mailcode 2431T                                 Mailcode 2431T
            Washington, DC 20460                           Washington, DC 20460
                                                                                                                14-P-0317
                        U.S. Environmental Protection Agency                                                 July 15, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Should Improve Oversight and Assure
The U.S. Environmental              the Environmental Results of Puget Sound
Protection Agency (EPA),
Office of Inspector General
                                    Cooperative Agreements
(OIG), conducted this audit to
answer the following questions:      What We Found
                                    Overall, the OIG found that EPA Region 10 is effectively        EPA should
 Does the EPA ensure that          administering cooperative agreements and monitoring             improve the
  grantees are effectively          project progress to determine whether proposed outputs          administration and
  administering Puget Sound         and outcomes were achieved. However, we noted that              monitoring of Puget
  grants throughout the life of     improvements should be made in both the administration          Sound cooperative
  the grants?                       and monitoring of recipient activities. We found that           agreements.
 Does the EPA monitor              Region 10:
  project progress and
  collect data or indicators to         Documented activities conducted but did not consistently ensure that Puget
  determine whether proposed             Sound cooperative agreements met administrative requirements.
  project outputs and                   Was aware of subaward monitoring activities conducted by recipients, but
  outcomes are achieved?                 should improve oversight of subaward monitoring policies and activities,
                                         and lead organization oversight of subawards.
The Greater Puget Sound Basin
is defined as all watersheds         Recommendations and Planned Corrective Actions
draining into the United States
waters of Puget Sound,              We recommend that the Region 10 Administrator meet with project officers and
including the southern Georgia      grant specialists to discuss the results of this review and reinforce compliance with
Basin and the Strait of Juan de     agency policies for documenting, following up and resolving oversight activities.
Fuca. The Puget Sound is one        We recommend that the Region 10 Administrator ensure that grant specialists and
of the most ecologically diverse    project officers receive training on their responsibilities for subawards, collaborate
ecosystems in North America.        to periodically review subaward monitoring policies, and lead organizations’
                                    monitoring activity records to protect federal funds. We also recommend that
This report addresses the           Region 10 provide training to recipients regarding subaward monitoring
following EPA goals or              responsibilities, as well as evaluating Puget Sound resource allocations.
cross-agency strategies:
                                    In addition, we recommend that the Assistant Administrator for the Office of
 Protecting America’s waters.      Administration and Resources Management (OARM) review existing grants
 Embracing EPA as a                policies to determine whether policies need to be updated to clarify project officer
  high-performing organization.     and grant specialist subaward responsibilities, and recipient responsibilities for
                                    subaward monitoring.

                                    The EPA agreed with all of the recommendations and provided corrective action
                                    plans and completion dates to address all of the draft report’s recommendations.

For further information,             Noteworthy Achievements
contact our public affairs office
at (202) 566-2391.                  Region 10 developed the Financial and Ecosystem Accounting Tracking System
                                    report for the Puget Sound program. The reports enable project officers to more
The full report is at:              easily determine the status of outputs and deliverables for tasks and subtasks, as
www.epa.gov/oig/reports/2014/       well as determine actions taken by the recipients. The reports also help to ensure
20140715-14-P-0317.pdf              that negotiated work plan tasks are being accomplished and funds are being spent
                                    in a timely manner and within the approved budget.
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                    THE INSPECTOR GENERAL




                                              July 15, 2014

MEMORANDUM

SUBJECT:       EPA Should Improve Oversight and Assure the Environmental Results of
               Puget Sound Cooperative Agreements
               Report No. 14-P-0317

FROM:          Arthur A. Elkins Jr.

TO:            Dennis McLerran, Regional Administrator
               Region 10

               Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit-resolution procedures.

EPA Region 10 offices responsible for implementing most of the recommendations are the Office of
Water and Watersheds, and the Office of Management Programs. The headquarters Office of Grants and
Debarment, within the Office of Administration and Resources Management, is responsible for
implementing one of the recommendations.

Action Required

In response to the draft report, the agency provided a corrective action plan that addresses the
recommendations and establishes milestone dates. Therefore, a response to the final report is not
required. The agency should track corrective actions not implemented in the Management Audit
Tracking System.

This report will be available at http://www.epa.gov/oig.
EPA Should Improve Oversight and Assure                                                                              14-P-0317
the Environmental Results of Puget Sound
Cooperative Agreements




                                  Table of Contents

 Chapters
   1    Introduction .......................................................................................................    1

                Purpose .....................................................................................................   1
                Background................................................................................................      1
                Responsible Offices ...................................................................................         2
                Noteworthy Achievements .........................................................................               2
                Scope and Methodology ............................................................................              2

   2    File Documentation Should Be Improved .......................................................                           4

                Documentation of Monitoring and Review Activities Is Required ................                                  4
                Some Monitoring and Review Activities Are Not Complete ........................                                 5
                Documentation and Follow-Up Are Not Emphasized ..................................                               6
                Information Is Not Complete .....................................................................               6
                Recommendation .......................................................................................          7
                Agency Comments and OIG Evaluation .....................................................                        7

   3    Oversight of Subawards Should Be Improved ...............................................                               8

                Agreements Must Comply With Federal and EPA Requirements ...............                                         8
                Subaward Monitoring Policies Did Not Address All Required Elements .....                                         9
                Project Officers Should Increase Awareness of Subaward Monitoring .......                                       11
                Recipients Should Improve Subaward Oversight .......................................                            11
                Issues With Regional Resources Affect Oversight .....................................                           12
                Lack of Systematic Oversight of Subawards Increases Risk ......................                                 13
                Recommendations .....................................................................................           14
                Agency Comments and OIG Evaluation ....................................................                         14

   Status of Recommendations and Potential Monetary Benefits .............................                                      16



 Appendices
   A    Puget Sound Cooperative Agreements Reviewed by the EPA OIG ..............                                               17

   B    Agency Response to Draft Report...................................................................                      18

   C    Distribution .......................................................................................................    23
                                  Chapter 1
                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), conducted this audit in part due to the significant amount of federal funds
            that EPA Region 10 has awarded for Puget Sound. Specifically, our audit
            objectives were to answer the following questions:

                  Does the EPA ensure that grantees are effectively administering Puget
                   Sound grants throughout the life of the grants?
                  Does the EPA monitor project progress and collect data or indicators to
                   determine whether proposed project outputs and outcomes are achieved?

Background
            According to Region 10, Puget Sound was given priority status in the 1987
            amendments to the Clean Water Act and was included as one of the original
            programs in the National Estuary Program. The goal of an estuary program is to
            develop and implement a management plan, known as a Comprehensive
            Conservation and Management Plan (CCMP), for the designated area. For Puget
            Sound, the CCMP is called the Puget Sound Action Agenda (Action Agenda),
            which was approved by the EPA in 2009. The Action Agenda describes actions
            and priorities to restore and protect the Puget Sound by 2020, and it was updated
            in 2012.

            Since 2010, federal funds totaling approximately $110 million have been
            specifically appropriated for Puget Sound and for the implementation of the
            CCMP. Region 10 shifted to the lead organization model in 2010 due to the large
            influx of appropriated funds for Puget Sound. Region 10 awarded federal funds to
            seven lead organizations. The lead organizations implement targeted strategies
            mainly through the issuance of subawards. The lead organizations focus on seven
            areas:

                  Toxics and nutrients reduction and prevention.
                  Protection of at-risk watersheds.
                  Pathogen reduction and prevention.
                  Marine and nearshore habitat restoration and protection.
                  Recovery and actions of high tribal priority.
                  Overseeing the implementation of the 2020 Action Agenda for Puget
                   Sound recovery.
                  Outreach, education and stewardship.



14-P-0317                                                                                        1
Responsible Offices
                   Region 10 offices responsible for implementing four of the recommendations are
                   the Office of Water and Watersheds, and the Office of Management Programs.
                   The headquarters Office of Grants and Debarment (OGD), within the Office of
                   Administration and Resources Management, is responsible for implementing one
                   recommendation.

Noteworthy Achievements
                   Region 10 developed the Financial and Ecosystem Accounting Tracking System
                   (FEATS) report. The EPA and the cooperative agreement recipients are
                   responsible for completing specific areas of information in the FEATS reports.
                   Specifically, recipients complete information related to:

                           Funds spent to date.
                           Funds drawn down from EPA.
                           Issues or questions where response from the EPA is needed.
                           Budget discrepancies.
                           Date, status and remarks for tasks and subtasks.
                           Challenges and solutions.
                           Highlights, lessons learned and reflections.

                   The FEATS reports enable project officers to more easily determine the status of
                   outputs and deliverables for tasks and subtasks, as well as actions taken by the
                   recipient. The FEATS reports help to ensure that tasks in the negotiated work plan
                   are being accomplished and that funds are being spent in a timely manner and
                   within the approved budget.

Scope and Methodology
                   We conducted our performance audit from July 2013 through May 2014, in
                   accordance with generally accepted government auditing standards issued by the
                   Comptroller General of the United States. Those standards require that we plan
                   and perform the audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our audit objectives.
                   We believe that the evidence obtained provides a reasonable basis for our findings
                   and conclusions based on our audit objectives.

                   As of July 2013, Region 10 had 69 open Puget Sound awards totaling more than
                   $125 million.1 We initially selected a sample of four Puget Sound awards,
                   randomly selecting two with obligations of $1 million or more, and two from the
                   remainder of the universe. During field work we focused on subaward monitoring
                   by the seven lead organizations. One of the seven lead organizations had been

1
    The EPA awarded some grants using funds appropriated for the National Estuary Program.


14-P-0317                                                                                           2
                 included in the initial sample selection. As a result, the total number of Puget
                 Sound awards we reviewed was 10 (appendix A).

                 To answer our audit objectives, we reviewed the project and Grants Management
                 Office (GMO) files maintained by project officers and grant specialists. Our
                 review included documentation of the FEATS reviews, FEATS feedback to the
                 recipient, and baseline and advanced monitoring reports. 2

                 We interviewed project officers and grant specialists to obtain an understanding
                 of the activities they conducted to: (1) ensure grantees are effectively
                 administering Puget Sound grants; and (2) monitor project progress and collect
                 data to ascertain whether project outputs and outcomes were achieved.
                 We also followed up on discrepancies or concerns noted during our review of the
                 project and GMO files. We interviewed project officers to determine their
                 knowledge of recipients’ subaward monitoring activities and to determine if they
                 reviewed recipients’ documentation for subaward monitoring activities.

                 We interviewed recipients to determine their interaction with Region 10 and to
                 determine whether subaward monitoring activities were conducted. In our sample
                 of 10 awards, one recipient did not have any subawards. We obtained and
                 reviewed the recipient subaward monitoring policies to determine if the policies
                 complied with the award’s administrative condition for subawards, and with Title
                 40 of the Code of Federal Regulations (CFR) Parts 30 and 31. Then we reviewed
                 the semiannual FEATS reports for the period April 1 through September 30,
                 2013, to determine if recipients reported tasks, subtasks, outputs or deliverables as
                 being behind schedule, specifically those related to subawards.

                 We also met with Office of Grants and Debarment staff to discuss the EPA’s
                 management expectations for: (1) recipients’ subrecipient monitoring activities;
                 and (2) staff responsibilities for ensuring subrecipient monitoring.

                 There are no prior OIG or U.S. Government Accountability Office audits
                 impacting the objectives of this assignment.




2
 Baseline monitoring is the minimum basic monitoring that ensures award terms and conditions are satisfied.
Advanced monitoring validates recipients’ compliance with programmatic and financial statutes, regulations,
conditions and policies.


14-P-0317                                                                                                     3
                                    Chapter 2
            File Documentation Should Be Improved
            Region 10’s project officers and grant specialists generally documented activities
            conducted but did not consistently follow up, resolve, or document issues or
            concerns identified during baseline monitoring reviews. In addition, project
            officers did not always document review of recipients’ progress reports. The
            assistance agreement files should include documentation so that a third party can
            easily follow the sequence of events regarding the project, which includes the
            project officers review of recipient progress reports. Region 10 management is not
            emphasizing follow-up and documentation of activities conducted. The lack of
            documentation results in incomplete information regarding decisions made and
            instructions given to recipients during the life of the cooperative agreements.

Documentation of Monitoring and Review Activities Is Required
            The EPA’s Project Officer Manual states that the project officer is responsible for
            maintaining the official technical project file and documenting all communication.
            Monitoring activities, baseline and advanced, must be documented in the project
            file. The assistance agreement files should include documentation so that a third
            party can easily follow the sequence of events regarding the project. The grant
            specialist is responsible for the development and maintenance of the official EPA
            GMO file. Both the project and GMO files serve as collections of documents and
            or items that provide programmatic and/or fiscal information on the purpose,
            performance and history of an award to a specific recipient.

            EPA Order 5700.7, Environmental Results under EPA Assistance Agreements,
            Section 9, states project officers must review performance reports and document
            this review in the official project file. The EPA Project Officer Manual goes a
            step further and requires the project officer to provide comments to the recipient
            regarding the progress report, even if everything looks satisfactory.

            EPA Order 5700.6A2, Policy on Compliance Review and Monitoring, Section 10,
            states that both the project officers and grant specialists are responsible for
            maintaining appropriate file documentation. In addition, monitoring reports are to
            be recorded in appropriate databases, such as the Post Award or Grantee
            Compliance databases within the Integrated Grants Management System.




14-P-0317                                                                                        4
Some Monitoring and Review Activities Are Not Complete
                    Region 10’s project officers and grant specialists generally documented activities
                    conducted for Puget Sound cooperative agreements.3 However, we found that
                    grant specialists did not consistently follow up, resolve, or document actions
                    taken regarding issues or potential issues identified during baseline monitoring or
                    other contacts. In addition, all four of the project officers did not consistently
                    document their review of the semiannual FEATS reports or inform the recipient
                    that the reports were acceptable or needed improvements. One project officer did
                    not document oral approval of a sole-source contract, even though a Region 10
                    manager said documentation should be retained in the files for such approvals.
                    Although individually, these were minor issues, when viewed together, they
                    indicate that monitoring and review documentation should be improved.

                    We found the following unaddressed issues and concerns in the administrative
                    baseline monitoring reports conducted by the grant specialists for the four awards
                    reviewed:

                            One grant specialist noted that two recipients had delinquent
                             Disadvantaged Business Enterprise reports. The recipients were notified
                             but resolution was not documented.

                            Two grant specialists noted the EPA-related Office of Management and
                             Budget (OMB) Circular A-133 findings for two recipients. One grant
                             specialist initiated action but did not complete any follow-up actions, and
                             the other grant specialist did not document any action.

                            One grant specialist noted concern about the small amount of Federal
                             Funding Accountability and Transparency Act Subaward Reporting
                             System reporting. Follow-up action was initiated but not completed.

                    We found the following issues with project officer monitoring activities:

                            One project officer did not document phone calls with the recipient.

                            Two project officers each had one baseline monitoring report that was
                             6 months late.

                    We found the following issues regarding project officer documentation for
                    FEATS progress reports:

                            Project officers did not always document their review of recipients’
                             FEATS reports.


3
    This section refers to the four cooperative agreements we reviewed during the preliminary research phase.


14-P-0317                                                                                                       5
                   o One project officer received five semiannual FEATS reports. We
                     found documentation that only one of the FEATS reports was
                     reviewed.

                   o Two project officers each received five semiannual FEATS reports.
                     We found documentation that only three reports were reviewed.

                   o One project officer received four semiannual FEATS reports. We
                     found documentation that only three reports were reviewed.

                  Project officers did not consistently discuss the FEATS reports with the
                   recipients. Each of the four project officers documented some
                   communication with recipients for at least one submitted FEATS report.

Documentation and Follow-Up Are Not Emphasized
            Region 10 staff does not consistently pay attention to the details of grant
            administration by documenting actions that have been taken and following up
            where needed. A grant specialist explained that there was no system for ensuring
            follow-up would occur. A Region 10 manager stated that due to loss of staff, the
            region has not been able to conduct follow-up. As a result, administrative
            requirements not associated with the possible recovery of funds were
            deemphasized.

            In addition, Region 10 management is not emphasizing the requirement for
            project officers to document the review of progress reports. One Region 10
            manager stated that if the report was added to the FEATS share drive, this was
            good enough for documenting the report had been reviewed. Another
            Region 10 manager agreed that project officers should document that they
            reviewed the submissions and that the submissions are acceptable. However,
            due to time constraints, not everyone documents their reviews.

Information Is Not Complete
            The lack of documentation results in incomplete information regarding decisions
            made and instructions given to recipients during the life of cooperative
            agreements. Documenting the reviews is important because project officers
            frequently change during the life of the cooperative agreement. In addition, the
            lack of follow-up can result in ongoing issues with recipients and potentially puts
            federal funds at risk.




14-P-0317                                                                                      6
Recommendation
            We recommend that the Regional Administrator for Region 10:

               1. Meet with project officers and grant specialists to discuss the results of
                  this review and reinforce compliance with agency policies for
                  documenting, following up and resolving oversight activities.

Agency Comments and OIG Evaluation
            In response, Region 10 agreed with our recommendation. The Puget Sound
            Program will commit staff time to develop in-house training and refresher materials
            for project officers. After a meeting with the Region 10 Administrator, the Grants
            and Interagency Agreements Unit will commit to providing a mandatory refresher
            session for all grants specialists on baseline monitoring, including procedures for
            following up on issues discovered when monitoring and documenting files. These
            actions will be completed by December 31, 2014. When implemented, agency
            actions should address the recommendation.




14-P-0317                                                                                      7
                                      Chapter 3
            Oversight of Subawards Should Be Improved
              Region 10 is generally aware of subaward monitoring activities conducted by
              recipients, but project officers did not monitor oversight and activities for Puget
              Sound cooperative agreements in a manner consistent with EPA policy and
              guidance. In addition, project officers did not ensure that recipients were aware of
              subaward monitoring expectations and did not review grant recipients’ monitoring
              records.

              Puget Sound cooperative agreement recipients are responsible for the overall
              management of subawardees and ensuring subawardees comply with applicable
              federal and EPA requirements. Project officers emphasized overall progress rather
              than compliance with specific subaward requirements. This emphasis on overall
              progress increased the risk that project officers would not detect issues needing
              corrective action that might impact the project meeting its goals.

Agreements Must Comply With Federal and EPA Requirements
              Title 40 CFR Parts 30 and 31 provide requirements for subaward monitoring for
              institutions of higher education, nonprofits, and governments and local entities.

                    Title 40 CFR § 30.51 (institutions of higher education and nonprofits)
                     states that recipients are responsible for managing and monitoring each
                     project, program, subaward, function or activity supported by the award.
                     Recipients shall monitor subawards to ensure subrecipients have met the
                     audit requirements as delineated in 40 CFR §30.26.

                    Title 40 CFR §§ 31.26(1)-(2) (governments and local entities) states that
                     state or local governments that provide federal awards to subgrantees that
                     expend $500,000 or more of federal funds in a fiscal year shall determine
                     whether:

                         o State or local subgrantees have met audit requirements and
                           whether subgrantees covered by OMB A-110 have met audit
                           requirements.

                         o Subgrantees spent federal assistance funds provided in accordance
                           with applicable laws and regulations.

                    Title 40 CFR § 31.40 states that grantees are responsible for managing
                     day-to-day operations of grant and subgrant supported activities. Grantees
                     must monitor grant and subgrant activities to ensure compliance with
                     applicable federal requirements, and ensure that performance goals are


14-P-0317                                                                                         8
                   being achieved. Grantee monitoring must cover each program, function or
                   activity.

            The EPA directs compliance requirements by attaching an administrative
            National Term and Condition for Subawards, which states the recipient agrees to:

                  Maintain primary responsibility for ensuring successful completion of the
                   EPA-approved project. (This responsibility cannot be delegated or
                   transferred to a subrecipient.)

                  Ensure that any subawards comply with OMB Circular A-133, Sections
                   210 (a)–(d).

                  Monitor the performance of subrecipients and ensure that they comply
                   with all applicable regulations, statutes, and terms and conditions which
                   flow down in the subaward.

Subaward Monitoring Policies Did Not Address All Required Elements
            Although Region 10 is aware of recipients’ progress through regular FEATS
            reports, the region is not ensuring that recipients are aware of subaward
            monitoring expectations. We found that for eight of the nine cooperative
            agreements with subawards, recipients had subaward monitoring policies or
            informal procedures. One recipient had no policy at all. None of the policies or
            informal procedures addressed all of the elements from the CFR and the
            administrative National Term and Condition for Subawards, as shown in table 1.




14-P-0317                                                                                      9
Table 1: Cooperative agreement subaward monitoring policy or memo review

     Subaward requirements               1      2        3         4         5        6       7   8   9

 1. Require OMB Circular A-133         No       X        X         X                          X   X   X
 audits for subrecipients              Policy
 expending $500,000 or more in
 federal awards during the fiscal
 year. Require additional
 monitoring activities (e.g., review
 an audit of the subgrantee to
 ensure that appropriate corrective
 action is taken; consider whether
 the audit of the subgrantee
 necessitates an adjustment of the
 grantee’s own records; and
 require each subgrantee to permit
 independent auditors to have
 access to records and financial
 statements).
 2. Monitor the performance of                  X        X         X         X       X        X   X   X
 recipients and ensure they
 comply with all applicable
 regulations, statutes, and terms
 and conditions.
 3. Obtain the EPA’s consent
 before making a subaward to a
 foreign or international
 organization, and before making
 a subaward to be performed in a
 foreign country.
 4. Ensure subawards to 501(c)(4)                        X                           X        X
 organizations do not involve
 lobbying activities.
 5. Ensure subawards are                        X        X         X                              X   X
 awarded to eligible subrecipients;
 and that costs are necessary,
 reasonable and allocable.
 6. Maintain primary responsibility                                                               X   X
 for ensuring the successful
 completion of the EPA-approved
 project.
 7. Ensure that any subawards                                                                     X   X
 comply with the standards in
 Sections 210 (a)-(d) of OMB
 Circular A-133, and that the
 subawards are not used to
 acquire commercial goods or
 services for the recipient.
Source: OIG analysis of policies or memos provided by recipients regarding subaward monitoring.
Note: Shaded area represents a missing requirement.




14-P-0317                                                                                             10
Project Officers Should Increase Awareness of Subaward Monitoring
                Region 10 project officers are generally aware of recipients’ subaward monitoring
                activities, but improvements can be made. During our interviews, we found that
                project officers were generally aware of, or had knowledge of, the types of
                subaward monitoring activities for seven of the nine cooperative agreements.
                However, project officers had not reviewed recipients’ monitoring records.
                Although such a review is not required, it would be reasonable for Region 10 to
                review such records on a periodic basis to ensure compliance with subaward
                terms and conditions. This is especially important because Region 10’s approach
                is to have lead organizations implement strategies largely through subawards, and
                the number of subawards could exceed 50.

                We also found through our interviews with project officers that their knowledge
                of subaward monitoring activities varied widely. Project officers for five of the
                nine cooperative agreements stated that recipients were monitoring their
                subawards through FEATS reports. Project officers for six of the nine cooperative
                agreements identified additional monitoring activities that included meetings,
                telephone calls or site visits. Two project officers were unsure of subaward
                monitoring activities. Table 2 describes the results of our interviews dealing with
                subaward oversight.
 Table 2: Summary of project officer knowledge of subaward oversight
      Cooperative
      agreement                Project officer knowledge of some                 Project officer review of subaward
       recipient                subaward monitoring activities *                     monitoring documentation
           1                                    Yes                                               No
           2                                    No                                                No
           3                                    Yes                                               No
           4                                    Yes                                               No
           5                                    Yes                                               No
           6                                    Yes                                               No
           7                                    Yes                                               No
           8                                    Yes                                               No
           9                                    Yes                                               No
  Source: OIG interviews with project officers.
  *
  Activities identified by project officers included communication, site visits, review of FEATS reports,
  and Web postings.


Recipients Should Improve Subaward Oversight
                Cooperative agreement recipients rely on telephone calls, site visits, FEATS
                reports, and reviews of deliverables and invoices for subaward monitoring.
                We found that recipients were not consistently documenting monitoring activities,
                such as site visits, external audit reviews, etc. Two managers for one lead
                organization had two different practices for documenting subaward monitoring.
                One manager filled out an outline and put it in the database, but the other did not.
                One lead organization stated that a list of site visits was not retained. Another lead



14-P-0317                                                                                                        11
                  organization told us monitoring activities such as site visits were not being
                  documented, but the organization did say it was creating a form to document
                  whether monitoring had occurred and that the form would be used going forward.
                  Table 3 shows monitoring practices and tracking for subawards varied.

Table 3: Summary of recipient subaward oversight interviews
  Cooperative
  agreement                                                                                    Document
   recipient                    Subaward monitoring activities described                     some activities
        1             FEATS reports, team meetings and check-ins.                                  Yes
        2             Correspondence, emails, telephone calls, periodic check-ins and               No
                      review of external audits.
        3             Site visits (including photos), invoices, verbal communication,              Yes
                      spreadsheet tracking, and Quality Assurance Project Plan (QAPP)
                      reviews.
        4             Review quarterly progress and QAPP reports, monthly                          Yes
                      communication, emails, meeting attendance and notes taken, and
                      tracking spreadsheet.
        5             Site visits in standardized format, review of deliverables, QAPPs,           Yes
                      technical reports and external audits.
        6             Review of FEATS reports and deliverables, verbal and email                   Yes
                      communications, and check-ins as needed.
        7             Communication via email, telephone, and in person; tracking                  Yes
                      spreadsheet; review of FEATS; QAPPs; deliverables; invoices;
                      A-133 audits; and documented site visits.
        8             Site visits, review of progress reports, invoices and meetings on             No
                      deliverables.
        9             Site visits, review of progress reports, invoices and meetings on             No
                      deliverables. i
Source: OIG interviews with cooperative agreements recipients.
i Based on an interview with the recipient for cooperative agreement 8. The recipient did not have additional

information to provide regarding oversight activities for cooperative agreement 9.

                  In their FEATS reports to Region 10, we found that not all lead organizations are
                  reporting on subaward monitoring activities or when a subaward is behind
                  schedule. For example, we found:

                       Only four of seven lead organizations’ FEATS reports described activities
                        related to subaward monitoring such as meetings attended or sites visited.
                       Although most subrecipients provided project updates through FEATS
                        reporting, only three of seven recipients reported on the status of individual
                        subawards within the lead organization FEATS reports.
                       Three of seven lead organizations reported subawards that are behind
                        schedule, but we found four had subawards behind schedule.

Issues With Regional Resources Affect Oversight
                  Region 10 relies heavily on recipients, specifically lead organizations, to monitor
                  subawards and ensure project completion. Regional staffing resources have not
                  been sufficient to manage the large influx of Puget Sound funds. In 2010, funds



14-P-0317                                                                                                       12
            totaling $50 million were appropriated for Puget Sound. However, according to
            Region 10, staffing resources were not increased.

            Also, Region 10 staff was not aware of an ongoing requirement to address
            compliance with subaward monitoring, other than during advanced monitoring.
            Because the region relies on lead organizations, ensuring compliance with
            subaward terms and conditions should not be limited to advanced monitoring.
            Since Region 10 was not emphasizing subaward monitoring expectations, such as
            documenting subaward monitoring activities, lead organizations were not aware
            of the importance of conducting and documenting such activities. During our
            discussions with Region 10, staff stated that the Puget Sound team could provide
            additional guidance for subawards.

Lack of Systematic Oversight of Subawards Increases Risk
            A lack of systematic oversight of activities for cooperative agreements with
            subawards (specifically lead organizations) potentially puts federal funds at risk
            and could result in avoidable, no-cost time extension requests to complete
            projects. These delays could result in environmental goals not being achieved.
            When subaward reports received by recipients are not summarized accurately for
            the region, projects that are behind schedule may not be addressed. We found that
            a number of subaward tasks were either characterized inaccurately or actually
            behind schedule.

                  One recipient provided a spreadsheet showing subaward details reporting
                   the status of individual tasks as complete. However, additional remarks
                   were inconsistent with the completed status. For example:

                   o On-site sewage denitrification verification subaward stated that three
                     tasks had not been started.

                   o Pesticide use survey subaward showed three tasks were less than 100
                     percent complete.

                   o Outreach and workshops for preventing automobile leaks showed that
                     two tasks were making progress but were reported as complete.

                  Another recipient’s subaward involved recruiting local businesses and
                   providing technical advice. The subawardee was still recruiting businesses
                   and assessing technical needs, but the recipient did not report it as behind
                   schedule.

            These difficulties result from challenges that lead organizations have managing a
            large number of subawards and the need to summarize information for Region 10.
            It is possible that subaward tasks that are behind schedule could be reduced if
            recipients with subawards were providing more focused oversight and tracking.


14-P-0317                                                                                     13
Recommendations
            We recommend that the Regional Administrator for Region 10:

               2. Ensure that grant specialists and project officers receive training on their
                  responsibilities for subawards and collaborate to periodically review:

                       a. Recipients’ subaward monitoring policies for compliance with
                          terms and conditions.

                       b. Lead organizations’ monitoring activity records to ensure that
                          sufficient subaward monitoring is conducted to protect federal
                          funds.

               3. Provide training to recipients regarding subaward monitoring
                  responsibilities and periodically check on the execution of those
                  responsibilities.

               4. Evaluate whether the resources allocated to overseeing Puget Sound
                  cooperative agreements are sufficient to effectively achieve the Puget
                  Sound Program’s needed environmental results.

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               5. Review existing grants policies to determine whether policies need to be
                  updated to clarify project officer and grant specialist responsibilities with
                  subawards, as well as recipient responsibilities for subaward monitoring.

Agency Comments and OIG Evaluation
            In response to recommendation 2, Region 10 agreed with the recommendation.
            Region 10 plans to conduct meetings or training to review requirements for
            recipient subaward monitoring and what requirements need to be communicated
            to lead organizations. The Puget Sound Program will commit staff time to
            develop in-house training and refresher materials for project officers to use at a
            training session. Grants specialists will be included in the meetings/trainings.
            Puget Sound project officers will include a semiannual review of lead
            organization subrecipient monitoring as part of their FEATS report review. This
            additional aspect of the FEATS review for lead organizations will begin with the
            reporting period ending September 30, 2014. These actions will be completed by
            December 31, 2014. When implemented, agency actions should address the
            recommendation.

            In response to recommendation 3, Region 10 agreed with the recommendation
            and will conduct training on subaward monitoring responsibilities for the


14-P-0317                                                                                        14
            Puget Sound Program’s lead organizations. This will be completed by December
            31, 2014. When implemented, the agency actions should address the
            recommendation.

            In response to recommendation 4, Region 10 agreed with the recommendation.
            The Grants Streamlining Workgroup is finalizing and phasing in streamlined
            grants processes. This will include making sure available resources are adequately
            utilized to provide effective grant management and monitoring. These actions will
            be completed by March 31, 2015. When implemented, agency actions should
            address the recommendation.

            In response to recommendation 5, the OGD agreed with the recommendation.
            The OGD plans to review existing policies, guidance and regulations to
            determine if further clarification is needed. This review will be completed by
            September 30, 2014. If needed, the OGD will work with the grants management
            community to provide policy updates or guidance, as appropriate, to both EPA
            grants management staff and recipients concerning their respective
            responsibilities regarding subawards. The OGD will ensure policy updates or
            guidance are included in training for project officers and grants specialists. These
            actions will be completed by September 30, 2015. When implemented, agency
            actions should address the recommendation.




14-P-0317                                                                                     15
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed-To
    No.      No.                           Subject                        Status1        Action Official             Date      Amount      Amount

    1        7      Meet with project officers and grant specialists      O         Regional Administrator,        12/31/14
                    to discuss the results of this review and                             Region 10
                    reinforce compliance with agency policies for
                    documenting, following up and resolving
                    oversight activities.
    2       14      Ensure that grant specialists and project             O         Regional Administrator,        12/31/14
                    officers receive training on their responsibilities                   Region 10
                    for subawards and collaborate to periodically
                    review:
                       a. Recipients’ subaward monitoring policies
                          for compliance with terms and
                          conditions.
                       b. Lead organizations’ monitoring activity
                          records to ensure that sufficient
                          subaward monitoring is conducted to
                          protect federal funds.
    3       14      Provide training to recipients regarding              O         Regional Administrator,        12/31/14
                    subaward monitoring responsibilities and                              Region 10
                    periodically check on the execution of those
                    responsibilities.
    4       14      Evaluate whether the resources allocated to           O          Regional Administrator,       03/31/15
                    overseeing Puget Sound cooperative                                     Region 10
                    agreements are sufficient to effectively achieve
                    the Puget Sound Program’s needed
                    environmental results.
    5       14      Review existing grants policies to determine          O         Assistant Administrator for    09/30/15
                    whether policies need to be updated to clarify                     Administration and
                    project officer and grant specialist                             Resources Management
                    responsibilities with subawards, as well as
                    recipient responsibilities for subaward
                    monitoring.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0317                                                                                                                                        16
                                                                                                                                           Appendix A

            Puget Sound Cooperative Agreements Reviewed by the EPA OIG
                                                                                            Project
                                                                                          officer and   Subaward
         Cooperative                                                       Project and       grant      monitoring
         agreement                                           Randomly       GMO files     specialist       policy        Lead          Number of
           number          Project period    EPA funding      selected      reviewed     interviewed     reviewed    organization a   subawards b
          00J15001           05/01/10–        $600,000           X              X              X         No policy                        3
                             04/30/14
            00J30301         10/01/10–        $4,359,784          X             X              X             X                            4
                             09/30/15
            00J20101         02/01/11–       $15,584,834                                       X             X             X              29
                             06/30/17
            00J27601          02/01/11–      $18,662,237                                       X             X             X              52
                              06/30/17
            00J32601          02/01/11–      $15,487,586                                       X             X             X              45
                              01/31/17
            00J29801          02/01/11–      $15,489,806                                       X             X             X              29
                              01/31/17
            00J32201          01/01/11–      $15,700,581                                       X             X             X              21
                              09/30/15
            00J32101          07/01/11–      $12,269,999          X             X              X             X             X              26
                              06/30/17
            00J17601          07/01/10–       $6,000,000                                       X             X             X              52
                              06/30/15
            00J13801          06/30/10–        $581,257           X             X              X            N/A                           0
                              06/30/13
             Total                           $104,736,084         4             4             10             8             7             261

       Source: OIG review of EPA and cooperative agreement recipient documents.
       a The   lead organizations and grant numbers were confirmed by Region 10.
       b The   number of subawards provided by lead organizations does not include contracts or internal awards.




14-P-0417                                                                                                                                           17
                                                                                     Appendix B

                   Agency Response to Draft Report


MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report No. OA-FY13-0341 “EPA
               Needs to Improve Oversight and Assure Environmental Results of Puget Sound
               Cooperative Agreements” dated May 6, 2014

FROM:          Dennis J. McLerran,
               Regional Administrator

TO:            Janet Kasper, Director
               Contact and Assistance Agreements Audits

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the agency’s overall position, along with its position on each
of the report recommendations. For those report recommendations with which the agency agrees,
we have provided either high-level intended corrective actions and estimated completion dates to
the extent we can or reasons why we are unable to provide high-level intended corrective actions
and estimated completion dates at this time. For those report recommendations with which the
agency does not agree, we have explained our position.

AGENCY’S OVERALL POSITION

We concur with the recommendations contained in this report and have already taken steps to
improve oversight and assure the environmental results of Puget Sound Cooperative Agreements.
However, we do not concur with all of the findings. For example, we do not concur with the
generalization that all areas need improvements to be made. We note and agree with the finding
presented in the opening statement of the “At a Glance” summary (page iii) where the first
paragraph starts with “Overall, the OIG found that EPA Region 10 is effectively administering
cooperative agreements monitoring project progress to determine whether proposed outputs and
outcomes were achieved.” We believe that this finding warrants a rephrasing of the observation
that improvements need to be made. We think a more accurate observation would be that
improvements can be made.

Similarly the characterization of file documentation, consistency of monitoring activities, and
EPA Project Officer’s awareness as characterized in the headings for the associated findings and
recommendations are overstated as being noteworthy deficiencies. We address each of these
statements separately in our responses. Finally, Region 10 does not concur with the final finding
in the report that states that funds are at risk. This finding is not supported by the text in this
report.
14-P-0317                                                                                        18
OARM, Office of Grants and Debarment, agrees with the OIG recommendation that OARM
review existing grants policies to determine whether policies need to be updated to clarify project
officer and grant specialist responsibilities regarding subawards, as well as recipient
responsibilities for subaward monitoring. Prior to the Puget Sound audit, this was already
identified as an area to review as part of OGD’s larger goal of improving assistance agreement
policies and updating EPA policies to be consistent with the newly published OMB Uniform
Guidance available at 2 CFR Part 200.

However, OGD would like to clarify that project officers and grant specialists do not monitor
subawards as suggested by the OIG’s recommendation to Region 10 to “…ensure grant
specialists and project officers receive training on their responsibilities to monitor subawards…”
As described in 40 CFR Parts 30, 31 and the newly published Uniform Guidance, progress under
an assistance agreement award is the prime recipient’s responsibility. The recipient is responsible
for monitoring award activities, compliance and summarizing subrecipient progress for EPA
review. Furthermore, EPA does not have a fiduciary relationship or privity with subrecipients.

To that end, OGD will review existing policies, guidance and regulations to determine if further
clarification is needed and will provide such policy updates or guidance as appropriate to both
EPA grants management staff and recipients on their respective responsibilities regarding
subawards under EPA grants. OGD will also ensure the subject is included in its national training
program.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

 No. Recommendation                  High-Level Intended Corrective             Estimated
                                     Action(s)                                  Completion by
                                                                                Quarter and FY
 1.    The Region 10                 Region 10 Response: Region 10              1st Quarter FY 2015
       Administrator meet with       concurs with this recommendation.
       project officers and          The Puget Sound Program will
       grants specialists to         commit staff time to develop in-
       discuss the results of this   house training and refresher
       review and reinforce          materials for project officers to use at
       compliance with agency        a training session. After a meeting
       policies for documenting,     with the Region 10 Administrator,
       following up and              the Grants and Interagency
       resolving oversight           Agreements Unit will commit to
       activities.                   providing a mandatory refresher
                                     session for all grants specialists on
                                     baseline monitoring, including
                                     procedures for following up on
                                     issues discovered in the monitoring
                                     and documenting the files.



14-P-0317                                                                                             19
2.   The Region 10                Region 10 Response: Region 10            1st Quarter FY 2015
     Administrator ensure that    concurs with this recommendation
     grants specialists and       and plans meetings/trainings to
     project officers receive     review requirements for recipient
     training on their            subaward monitoring and what
     responsibilities to          requirements need to be
     monitor subawards and        communicated to Lead
     collaborate to               Organizations. The Puget Sound
     periodically review:         Program will commit staff time to
       (a) Recipients             develop in-house training and
           subaward               refresher materials for project
           monitoring polices     officers to use at a training session.
           for compliance with    Grants specialists will be included in
           terms and              the meetings/trainings. Puget Sound
           conditions.            project officers will include review
       (b) Lead organizations     of Lead organization subrecipient
           monitoring activity    monitoring semi-annually, as part of
           records to ensure      the semi-annual FEATS report and
           that sufficient        review conducted for each Lead
           subaward               Organization. This additional aspect
           monitoring is          of the FEATS review for Lead
           conducted to protect   Organizations will begin with the
           federal funds.         reporting period ending September
                                  30, 2014, and continue thereafter for
                                  the project period for Puget Sound
                                  Lead Organization assistance
                                  agreements.
3.   The Region 10                Region 10 Response: The Puget            1st Quarter FY 2015
     Administrator provide        Sound Program will conduct a
     training to recipients       specific training to Puget Sound
     regarding subaward           Program Lead Organization
     monitoring                   assistance agreement recipients on
     responsibilities and         subaward monitoring
     periodically check on the    responsibilities.
     execution of those
     responsibilities.            Additionally, Puget Sound Program
                                  project officers will include review
                                  of Lead organization sub-recipient
                                  monitoring semi-annually, as part of
                                  the semi-annual FEATS report and
                                  review conducted for each Lead
                                  Organization. This additional aspect
                                  of the FEATS review for Lead
                                  Organizations will begin with the
                                  reporting period ending September
                                  30, 2014, and continue thereafter for
14-P-0317                                                                                        20
                                   the project period of Puget Sound
                                   Lead Organization assistance
                                   agreements.

4.   The Region 10                 Region 10 Response: Region 10            2nd Quarter FY 2015
     Administrator evaluate        concurs and the region’s Grants
     whether the resources         Streamlining Workgroup is
     allocated to overseeing       finalizing and phasing in streamlined
     Puget Sound cooperative       grants processes. This will include
     agreements are sufficient     making sure available resources are
     to effectively achieve the    adequately utilized to provide
     Puget Sound Program’s         effective grant management and
     needed environmental          monitoring.
     results.
5.   Review existing grants        1.1 OGD Response: Review                 4th Quarter FY 2014
     policies to determine             existing policies, guidance and
     whether policies need to          regulations to determine if
     be updated to clarify             further clarification is needed.
     project officer and grants    _____________________________            _________________
     specialist responsibilities   1.2 If needed, work with the grants      4th Quarter FY 2015
     with subawards, as well           management community to
     as recipient                      provide policy updates or
     responsibilities for              guidance as appropriate to both
     subaward monitoring.              EPA grants management staff
                                       and recipients on their respective
                                       responsibilities regarding
                                       subawards.
                                   ______________________________           _________________
                                   1.3 Ensure policy updates or             4th Quarter 2015
                                       guidance is included in nation
                                       training for project officers and
                                       grants specialists.




14-P-0317                                                                                     21
DISAGREEMENTS WITH FINDINGS

                   Finding                                   Agency Response
  File Documentation Improvements are          Region 10 does not concur with the
  Needed                                       generalized all inclusive statement of
                                               “improvements are needed.” Region 10
                                               agrees that file documentation can and
                                               should be improved.
  Monitoring and Review Activities are Not     Region 10 does not concur with the
  Consistent                                   implied condition that (all) monitoring and
                                               review activities are not consistent. Rather,
                                               some monitoring and review activities are
                                               not complete.
  Project Officers Need to Increase            Region 10 does not concur with this
  Awareness of Subaward Monitoring             generalization. As noted in the report,
                                               Region 10 project officers are generally
                                               aware of subaward monitoring activities
                                               conducted by recipients. Only two
                                               exceptions are noted in the report, where
                                               two project officers were unsure of
                                               subaward monitoring activities. The two
                                               project officers should improve awareness
                                               of Subaward Monitoring.
  Lack of Guidance and Oversight Puts Funds    Region 10 does not concur. The statement
  At Risk                                      that implies funds are at risk is not
                                               supported by the text in this report, nor are
                                               there any amount of funds at risk indicated
                                               on the “Status of Recommendations and
                                               Potential Monetary Benefits” table on page
                                               15 of this report. Based on the findings
                                               contained in this report, it is inaccurate to
                                               conclude that the conditions noted put
                                               funds at risk.

If you have any questions about this response, please contact Rick Parkin, Puget Sound Program
Manager at 206-553-8574, Russell Harmon, Acting Manager, Region 10 Grants and Interagency
Agreements Unit regarding grants issues at 206-553-1793, Jennifer Hublar, Program Analyst,
OGD at 202-564-5294, or JoAnne Brendle, Acting Region 10 Audit Follow-up Coordinator at
206-553-6385.




14-P-0317                                                                                      22
                                                                            Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 10
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Grants and Interagency Agreements Management Division,
  Office of Administration and Resources Management
Director, Office of Policy and Resource Management,
  Office of Administration and Resources Management
Deputy Director, Office of Policy and Resource Management,
  Office of Administration and Resources Management
Deputy Regional Administrator, Region 10
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Grants and Debarment,
  Office of Administration and Resources Management
Audit Follow-Up Coordinator, Region 10




14-P-0317                                                                           23
